(Emtrt uf JVppeals
For The District of Columbia Circuit

No. 20-5323

September Term, 2020
1:19-CV-03781 -CKK
Filed On: May 17, 2021

Akube Wuromoni Ndoromo
Appellant

v.
Merrick B. Garland and Channing Phillips,
Appellees

BEFORE:

Millett, Wilkins, and Rao, Circuit Judges
ORDER

Upon consideration of the motion for summary reversal, the opposition thereto,
the reply, and the surreply; the motion for summary affirmance, the opposition thereto
and the reply; and the court’s February 11,2021 order to show cause, it is
ORDERED that the order to show cause be discharged. It is
FURTHER ORDERED that the motion for summary reversal be denied and the
motion for summary affirmance be granted. The merits of the parties’ positions are so
clear as to warrant summary action. See Taxpayers Watchdog, Inc, v. Stanley, 819
F.2d 294. 297 (D.C. Cir. 1987) (per curiam). The district court did not abuse its
discretion in denying appellant’s motion for recusal because appellant provided no
reasonable basis for questioning the impartiality of the district court judge. See, e.o.,
Litekv v. United States, 510 U.S. 540. 555 (1994) {“[Judicial rulings alone almost never
constitute a valid basis for a bias or partiality motion.”). In addition, the district court
correctly concluded that appellant’s claims are barred by claim preclusion because they
were or could have been raised in appellant’s prior case, Ndoromo v. Barr, No. 1:18-cv2339 (D.D.C.). See Allen v. McCurry, 449 U.S. 90. 94 (1980) (“Under res judicata, a
final judgment on the merits of an action precludes the parties or their privies from
relitigating issues that were or could have been raised in that action.”).

jMmtefr States Court of appeals
For The District of Columbia Circuit

September Term, 2020

No. 20-5323

Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App,
P. 41(b): D.C. Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Page 2

/s/
Tatiana Magruder
Deputy Clerk

USCA Case #20-5323

Document #1910350

^inxitb

Filed: 08/16/2021

Page 1 of 1

(fLoxxxi of JVppjeals
For The District of Columbia Circuit

No. 20-5323

September Term, 2020
1:19-CV-03781 -CKK
Filed On: August 16, 2021

Akube Wuromoni Ndoromo
Appellant
v.
Merrick B. Garland and Channing Phillips,
Appellees

BEFORE:

Srinivasan, Chief Judge, and Henderson, Rogers, Tatel, Millett,
Pillard, Wilkins, Katsas, Rao, Walker, and Jackson, Circuit Judges
ORDER

Upon consideration of the petition for rehearing en banc, and the absence of a
request by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Michael C. McGrail
Deputy Clerk

Case l:19-cv-03781-CKK Document 16 Filed 08/31/20

Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

AKUBE WUROMONI NDOROMO,
Plaintiff
v.

Civil Action No. 19-3781 (CKK)

WILLIAM BARR, etal.
Defendants

ORDER
(August 31, 2020)
For the reasons set forth in the accompanying Memorandum Opinion, it is, this 31 st day
of August, 2020, hereby
ORDERED that Plaintiffs [9] Motion for Recusal is DENIED. It is further
ORDERED that Defendants’ [6] Motion to Dismiss is GRANTED. It is further
ORDERED that this case is DISMISSED.
This is a final appealable Order.
The Clerk of the Court shall mail a copy of this Order and the accompanying
Memorandum Opinion to Plaintiff at his address of record.
SO ORDERED.

/s/

COLLEEN KOLLAR-KOTELLY
United States District Judge

Case l:19-cv-03781-CKK Document 17 Filed 08/31/20 Page 1 of 13

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

AKUBE WUROMONI NDOROMO
Plaintiff
v.

Civil Action No. 19-3781 (CKK)

WILLIAM BARR, etal,
Defendants

MEMORANDUM OPINION
(August 31, 2020)
Pro se Plaintiff Akube Ndoromo brings this lawsuit against Defendants William Barr and
Timothy Shea requesting “restitution of his funds, and damages” totaling $1,048,357,812.17.
Compl., ECF No. 1-1. Pro se Plaintiffs Complaint is challenging to follow; but, as the Court
reads the Complaint in conjunction with other filings, Plaintiff appears to state three claims for
relief. First, Plaintiff alleges that his assets, including bank accounts, businesses, and other
properties, were wrongfully forfeited. Second, Plaintiff contends that Defendants violated the
False Claims Act. Third, Plaintiff argues that Defendants violated 12 USC § 1817 by wrongfully
taking his property and funds. Defendants have moved for the dismissal of all of Plaintiff s
claims. And, Plaintiff has moved for the recusal of the undersigned Judge. Upon consideration' of
the pleadings,1 the relevant legal authorities, and the record as a whole, the Court will DENY

The Court’s consideration has focused on the following documents:
• Defs.’ Mot. to Dismiss PI. ’s Compl. (“Defs.’ Mot.”), ECF No. 6;
• Pl.’s Mot. forRcusal of Judge Colleen Kollar-Kotelly and Defendant Never Respondent
to April 10, 2020 Order by Judge Amy Berman Jackson’s (“Pl.’s Mot.”), ECF No. 9;
• Defs.’ Res. to Pl.’s Mot. for Recusal (“Defs.’ Res.”), ECF No. 12;
• Pl.’s Responding to Judge’s Order of April 28, 2020, Def. Continues to File Liars and
False Misleading the Court and Failed to Respond to Order of April 10, 2020, also Failed
_____ toAnswer_the_CompJaint2vYhatjs_Missingjs.In.itiaLConference.for_Pj-.esentation.of Facts,. __
1

Case l:19-cv-03781-CKK Document 17 Filed 08/31/20 Page 2 of 13

Plaintiff s Motion for Recusal as Plaintiff has stated no legitimate grounds for the undersigned
Judge’s recusal. The Court will further GRANT Defendants’ Motion to Dismiss as Plaintiff has
failed to state a plausible claim for which relief may be granted.
I. BACKGROUND
For the purposes of the motion before the Court, the Court accepts as true the well-pled
allegations in Plaintiffs Complaint. The Court does “not accept as true, however, the plaintiffs
legal conclusions or inferences that are unsupported by the facts alleged.” Ralls Corp. v. Comm.
on Foreign Inv. in ihe United States, 758 F.3d 296, 315 (D.C. Cir. 2014). Further, because
Plaintiff proceeds in this matter pro se, the Court must consider not only the facts alleged in
Plaintiffs Complaint, but also the facts alleged in Plaintiffs other filings. See Brown v. Whole
Foods Mkt. Grp., Inc., 789 F.3d 146, 152 (D.C. Cir. 2015) (“a district court errs in failing to
consider a pro se litigant’s complaint ‘in light of all filings, including filings responsive to a
motion to dismiss”) (quoting Richardson v. United States, 193 F.3d 545, 548 (D.C. Cir. 1999));
Fillmore v. AT & TMobility Servs. LLC, 140 F. Supp. 3d 1, 2 (D.D.C. 2015) (“the Court, as it
must in a case brought by a pro se plaintiff, considers the facts as alleged in both the Complaint
and Plaintiffs Opposition to Defendant's Motion to Dismiss”). The Court recites only the
background necessary for the Court’s resolution of the pending Motion to Dismiss.
Plaintiffs allegations appear to stem from the seizure of Plaintiff s funds and other
property which resulted from a guilty verdict in the criminal matter, United Slates v. James, Case

Truth, and Evidence in Black and White Under Oath for Defendant as well as for Plaintiff
to Set the Trial (“Pl.’s Res.”), ECF No. 13; and
• PI. Want to Know the Status of the Case Nothing Received after last Filing of June 01,
2020, Memorandum of Points and Law Attachements for Initial Conference before Trial
Process (“Pi’s Notice”), ECF No. 15.
In-an-exercise-ofj.ts-discretion,-the-Co.ur.t-finds-that-lrolding-oral-argument-in-this-.action-would- —
not be of assistance in rendering a decision. See LCvR 7(f).
2

Case l:19-cv-03781-CKK Document 17 Filed 08/31/20 Page 3 of 13

No. 6-cr-l 9-EGS. In 2006, a federal grand jury returned a Superseding Indictment charging
Plaintiff with multiple counts of healthcare fraud, false statements, and money laundering.
James, Case No. 6-cr-19-EGS, ECF No. 3. The Superseding Indictment included a forfeiture
allegation. Id. at 13-15. On March 30, 2007, a jury found Plaintiff guilty of one count of
healthcare fraud, 11 counts of false statements related to healthcare matters, and eight counts of
money laundering. Id. at ECF No. 37. The jury further returned a Special Verdict, finding that
$ 1,856,812.71 and two vehicles represented property derived from or proceeds traceable to
Plaintiffs criminal acts. Id. at ECF No. 41.
In 2008, Plaintiff was sentenced to 57 months of incarceration and 36 months of
supervised release and was ordered to pay $1,856,812.71 in restitution. Id. at ECF No. 117. At
sentencing, the judge indicated that the forfeiture of $1,856,812.71 and two vehicles were
included as part of Plaintiff s sentence. Id. at ECF No. 152 at 2. Accordingly, on December 30,
2008, the court issued two final Orders of Forfeiture to that effect. Id. at ECF No. 122 (as to
funds), 123 (as to vehicles).
Following the resolution of Plaintiffs criminal matter, the government continued its
pursuit of the forfeiture of Plaintiff s funds and property in the civil forfeiture matter, United
States v. $455,273.72, Case No. 5-cv-356-EGS. And, in 2011, the court granted the government
summary judgment. The court explained that, because Plaintiffs conviction in his criminal case
was based on the same facts as the civil forfeiture matter, Plaintiffs funds and property were
subject to forfeiture as the proceeds of an unlawful activity. $455,273.72, Case No. 5-cv-356EGS, ECF No. 73, 12-16.
Since that time, Plaintiff has filed appeals and otherwise attacked the results of his
criminal and civil forfeiture matters. On October 10, 2018, Plaintiff filed a lawsuit very similar to

3

Case l:19-cv-03781-CKK Document 17 Filed 08/31/20 Page 4 of 13

the one currently before the Court. Nodormo v. Sessions, 18-cv-2339(CKK). In that suit, Plaintiff
argued that his property had been improperly seized, that his guilty verdict in his criminal matter
should be overturned, and that the Government violated the False Claims Act. Ndoromo, 18-cv2339(CKK), Compl., ECF No. 1. On July 2, 2019, the Court dismissed Plaintiff’s case, finding
that Plaintiff had failed to state any claim for which relief could be granted. Plaintiff appealed the
Court’s dismissal, and the United States Court of Appeals for the District of Columbia Circuit
affirmed the dismissal. Ndoromo, 19-5211 (D.C. Cir. Feb. 13,2020).
On November 18, 2019, Plaintiff filed in the Superior Court of the District of Columbia
this lawsuit, bringing substantially the same claims as his prior lawsuit. ECF No. 1 -1. Plaintiffs
case was then removed to the United States District Court for the District of Columbia before
Judge Amy Berman Jackson. ECF No. 1. On April 10, 2020, Defendants filed a notice of related
case, and this case was ultimately reassigned to the undersigned Judge who had presided over
Plaintiffs prior case, Nodormo v. Sessions, 18-cv-2339(CKK). Currently pending before the
Court are Defendants’ Motion to Dismiss and Plaintiffs Motion to Recuse.
II. LEGAL STANDARD
Defendants move to dismiss Plaintiffs Complaint on multiple grounds. However, as the
Court finds that dismissal is proper for failure to state a claim, the Court shall concentrate on the
standard for dismissal set out in Federal Rule of Civil Procedure 12(b)(6).2 According to Rule
12(b)(6), a party may move to dismiss a complaint on the grounds that it “failfs] to state a claim
upon which relief can be granted.” Fed. R. Civ. P. 12(b)(6). “[A] complaint [does not] suffice if
it tenders ‘naked assertion^]’ devoid of‘further factual enhancement.”’ Ashcroft v. Iqbal, 556

2 Defendants also move for dismissal under Rule 12(b)(1) for lack of subject matter jurisdiction,
arguing that portions of the Complaint are patently insubstantial, and 12(b)(5) for insufficient
service of process.

4

Case l:19-cv-03781-CKK Document 17 Filed 08/31/20 Page 5 of 13

U.S. 662, 678 (2009) (quoting Bell All. Corp. v. Twombly, 550 U.S. 544, 557 (2007)). Rather, a
complaint must contain sufficient factual allegations that, if accepted as true, “state a claim to
relief that is plausible on its face.” Twombly, 550 U.S. at 570. “A claim has facial plausibility
when the plaintiff pleads factual content that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.” Iqbal, 556 U.S. at 678.
III. DISCUSSION
The Court shall begin by explaining why recusal is inappropriate in these circumstances. .
The Court will next explain why dismissal is appropriate as Plaintiff has failed to state a claim
for which relief may be granted.
A. Recusal
In his Motion, Plaintiff argues that the undersigned Judge should be recused because this
Judge previously dismissed Plaintiffs claims in Nodormo v. Sessions, 18-cv-2339(CKK).
Plaintiff also argues that the Court “can’t be a Judge and a witness at this same time period.”
ECF No. 9.
Pursuant to 28 USC § 455(a), “[ajny justice, judge, or magistrate judge of the United
States shall disqualify [herjself in any proceeding in which [her] impartiality might reasonably
be questioned.” 28 USC § 455(a). In assessing section 455(a) motions for recusal, the D.C.
Circuit applies an “objective” standard: “Recusal is required when ‘a reasonable and informed
observer would question the judge's impartiality.’” S.E.C. v. Loving Spirit Found., Inc., 392 F.3d
486, 493 (D.C. Cir. 2004) (quoting United States v. Microsoft Corp., 253 F.3d 34, 114 (D.C. Cir.
2001), cert, denied, 534 U.S. 952 (2001)). Further, a party moving for recusal pursuant to
Section 455(a) “must demonstrate the court’s reliance on an ‘extrajudicial source’ that creates an
appearance of partiality or, in rare cases, where no extrajudicial source is involved, ... a deep-

5

Case l:19-cv-03781-CKK Document 17 Filed 08/31/20 Page 6 of 13

seated favoritism or antagonism that would make fair judgment impossible.” Middlebrooks v. St.
Coletta of Greater Washington, Inc., 710 F. Supp. 2d 77, 78 (D.D.C. 2010), affd, 201.1 WL
1770464 (D.C. Cir. Apr. 4, 2011), cert, denied, 565 U.S. 879 (2011) (citations and internal
quotation marks omitted).
Similarly, under 28 USC § 455(b), a judge shall disqualify herself “[w]here [s]he has a
personal bias or prejudice concerning a party, or personal knowledge of disputed evidentiary
facts concerning the proceeding.” 28 USC § 455(b)(1). Aparty moving for recusal pursuant to
Section 455(b) must likewise demonstrate “actual bias or prejudice based upon an extrajudicial
source.” Middlebrooks, 710 F. Supp. 2d at 79 (citations omitted).
Here, Plaintiffs request for recusal appears largely based on the undersigned Judge’s
rulings in another, similar action brought by Plaintiff, Nodormo v. Sessions, 18-cv-2339(CKK).
However, “judicial rulings are almost never grounds for a claim of bias or impartiality.” Ramos v.
U.S. Dep't ofJustice, 682 F. Supp. 2d 20, 24 (D.D.C. 2010) (“Although the plaintiff complains
that the court has granted every motion filed by the defendants and denied every motion filed by
the plaintiff, the law is clear that judicial rulings are almost never grounds for a claim of bias or
impartiality.”); S. Pac. Comm ‘ns v. Am. Tel & Tel. Co., 740 F.2d 980, 995 (D.C.. Cir. 1984)
(“statistical one-sidedness of the trial court’s evidentiary, factual and legal rulings simply cannot
be used to support an inference of judicial bias”). “Opinions formed by a judge ‘do not constitute
a basis for a bias or partiality motion unless they display a deep-seated favoritism or antagonism
that would make fair judgment impossible.’” Rafferty v. NYNEX Corp., 60 F.3d 844, 848 (D.C.
Cir. 1995) (quoting Liteky v. United States, 510 U.S. 540, 550 (1994)). Plaintiff does not explain
how the Court's ruling against him in the previous litigation would prevent the fair adjudication
of this case. Plaintiff further points to no evidence of judicial bias by the undersigned Judge. Nor

6

Case l:19-cv-03781-CKK Document 17 Filed 08/31/20 Page 7 of 13

has Plaintiff identified any extrajudicial acts by this Court that demonstrate pervasive bias or
prejudice against Plaintiff. Lacking greater specificity or evidence of bias, the Court finds that its
prior dismissal of a case brought by Plaintiff is insufficient grounds for recusal.
The Court next addresses Plaintiffs argument that the undersigned Judge should recuse
because a judge cannot also serve as a witness. The Court agrees that a judge cannot serve as a
witness in a case over which that judge is presiding: However, besides dismissing previous,
similar claims, the undersigned Judge has no connection to Plaintiffs claims in this lawsuit. Any
personal knowledge of Plaintiff s claims has been acquired solely from the discharge of official
judicial duties in the prior litigation. And, “[kjnowledge gained from the judge's discharge of his
judicial function is not a ground for disqualification under 28 U.S.C. § 455(b)(1).” Omega Eng'g,
Inc. v. Omega, S.A., 432 F.3d 437, 447-48 (2d Cir. 2005) (not recusing magistrate judge who had
personal knowledge of the settlement agreement based on his judicial duty to oversee the
settlement conference); see also United States v. Patrick, 542 F.2d 381, 390 (7th Cir. 1976)
(“facts learned by a judge in his judicial capacity cannot be the basis for disqualification”).
Moreover, Plaintiff has provided no explanation as to why or on what grounds the undersigned
Judge would be required to serve as a witness in this matter. “Unsubstantiated speculation about
the possibility that the judge will be required to be a material witness concerning a disputed issue
is not enough to require recusal.” United States v. Salemme, 164 F. Supp. 2d 49, 78 (D. Mass.
1998) (internal quotation marks omitted). “Recusal is only required where particularized facts
demonstrate that a judge will likely testify as a material witness,” and, here, Plaintiff has
provided no more than generalized speculation. Arrowood Indent. Co. v. City of Warren, Mich.,
54 F. Supp. 3d 723, 727 (E.D. Mich. 2034). Absent the requirement of particularized facts,

7

Case l:19-cv-03781-CKK Document 17 Filed 08/31/20 Page 8 of 13

litigants could engage in “judge shopping” through baseless allegations that the assigned judge
might be called as a witness.
Based on the foregoing, the Court finds that Plaintiff has failed to present any legitimate
grounds for recusal. As such, the Court DENIES Plaintiffs Motion to Recuse and will proceed to
Defendants’ Motion to Dismiss.
B. Dismissal
Plaintiff primarily brings three claims in his Complaint. First, Plaintiff alleges that his
assets, including bank accounts, businesses, and other properties, were wrongfully forfeited.
Second, Plaintiff contends that the government violated the False Claims Act. Third, Plaintiff
claims that Defendants’ wrongful taking of his funds violated 12 USC § 1817 and resulted in
bank penalties. Defendants have moved for the dismissal of all of Plaintiff s claims. The Court
concludes that Plaintiff has failed to state a claim for which relief may be granted.
The Court begins by addressing Plaintiffs preliminary, procedural argument. Plaintiff
argues that “defendant never responded to Judge Amy Berman Jackson’s orders of April 10,
2020, to Plaintiffs motions.” ECF No. 9, 1. The docket shows no order from Judge Berman
Jackson on April 10, 2020. Instead, the Court assumes that Plaintiff refers to her March 17, 2020
i

minute order stating that “Defendants must file a responsive pleading to plaintiffs complaint by
April 10, 2020.” Mar. 17, 2020 Minute Order. Plaintiff appears to argue that, because an answer
has not yet been filed, Defendants are in violation of a court Order. However, Plaintiff fails to
recognize that Defendants did respond to his Complaint by filing a Motion to Dismiss on April
10, 2020. ECF No. 6. Under Federal Rule of Civil Procedure 12, if a defendant files a motion to
dismiss, an answer to the complaint is not required until 14 days after notice of the court’s
action, if the court denies or otherwise postpones resolution of the motion. Fed. R. Civ. P.

8

Case l:19-cv-03781-CKK

Document 17 Filed 08/31/20 Page 9 of 13

12(a)(4)(A). As Defendants have filed a Motion to.Dismiss, they have complied with the Court’s
order and any Answer to Plaintiffs Complaint is not yet due.
Plaintiff also appears to argue that he is entitled to an “initial conference for presentation
of the facts, truth and evidence in black and white under oath for Defendant as well for Plaintiff
to set the trial.” ECF No. 13, 1 . A Court is not required to conduct a hearing or initial conference
when there is a pending motion to dismiss. Pursuant to Federal Rule of Procedure 16, a court
may schedule a pretrial conference for purposes such as expediting an action, case management, •
discouraging waste, improving preparation, and facilitating settlement. Fed. R. Civ. P. 16(a).
Here, the Court finds that none of these purposes would be served by a pretrial conference.
Similarly, under the local rules, it is in the Court’s discretion whether or not to hold an oral'
hearing to resolve a motion. LCvR. 7(f). And, again, the Court finds that holding an oral hearing
would not assist in resolving the merits of the parties’ motions. In this case, the legal issues are
clear, and holding a hearing would not assist the Court’s resolution.
Finally, Plaintiff is not entitled to a trial on the merits of his claims until the parties have
proceeded past the dispositive motions and discovery stages. As such, at this time, Plaintiff is not
entitled to a trial given the current phase of litigation.
1. Forfeiture Challenges
The Court next moves to Plaintiffs claim that his assets, including bank accounts,
businesses, and other properties, were wrongfully forfeited. The court finds that this claim should
be dismissed for at least two reasons. First, this claim is barred by issue and claim preclusion.
Second, Plaintiff cannot collaterally attack forfeiture orders through a civil complaint in this
Court.

9

Case l:19-cv-03781-CKK Document 17 Filed 08/31/20 Page 10 of 13

Generally, a plaintiff is expected to “present in one suit all the claims for relief that he
may have arising out of the same transaction or occurrence.” U.S. Indus., Inc. v. Blake Const.
Co., Inc., 765 F.2d 395, 205 (D.C. Cir. 1985) (citation omitted). Under the doctrine of res
judicata, a prior judgment on the merits of a plaintiffs claim bars the relitigation of the claim and
any other claims that could have been submitted to the Court. Allen v. McCurry, 449 U.S. 90, 94
(1980) (res judicata bars not only those issues that were previously litigated, but also those that
could have been but were not raised); LAM. Nat'l Pension Fund v. Indus. Gear Mfg. Co., 723
F.2d 944, 949 (D.C; Cir. 1983) (noting that res judicata “forecloses all that which might have
been litigated previously”). Here, review of the docket in Plaintiffs prior case, Nodoromo, 182339(CKK), shows that plaintiff either has raised or has had an opportunity to raise the claims
set forth in the instant complaint.
In his prior lawsuit, Plaintiff brought claims that the government improperly seized his
funds and property as a result of forfeiture orders in James, Case No. 6-cr-l 9-EGS and the grant
of summary judgment in $455,273.72, Case No. 5-cv-356-EGS. Plaintiff again raises this same
claim in the current lawsuit. However, that issue was necessarily determine when the Couit
dismissed Plaintiff’s case in its July 2, 2019 Order. Nodoromo, 18-2339(CKK), ECF Nos. 13, 14.
Additionally, the D.C. Circuit affirmed the dismissal of Plaintiff s case. Id. at ECF No. 17.
Plaintiff presents no reason that he should not be bound by that prior judgment.
In the current lawsuit, Plaintiff does bring a claim that he did not raise previously. He
argues that Defendants violated 12 U.S.C. § 1817 by robbing him and that he is entitled to a bank
penalty. However, this legal theory of liability is still based on the same previously-challenged
forfeitures and could have been raised previously. See Lewis v. Drug Enforcement Admin., Ill F.
Supp. 2d 151, 163 (D.D.C. 2011), aff’d, No. 11-5152, 2012 WL 1155698 (D.C. Cir. Mar. 8,

10

Case l:19-cv-03781-CKK Document 17 Filed 08/31/20 Page 11 of 13

2012) (explaining that a litigant cannot avoid preclusion by raising new legal theories that could
have been raised previously). The same is true for any other various legal theories related to the
forfeitures that Plaintiff may have raised for the first time in this lawsuit.
Accordingly, Plaintiffs claims challenging his forfeitures should be dismissed on the
grounds of claim and issue preclusion.
However, even if these claims were not barred, they would still fail. Plaintiff cannot
collaterally attack another court’s grant of forfeiture through a civil complaint in this Court. See
37 Associates, Trustee for the 37 Forrester Street, SJV Trust v. REO Const. Consultants, Inc., 409
F. supp. 2d 10, 14 (D.D.C. 2006) (explaining that an in rem forfeiture “is not subject to collateral
attack in any other court”); Roberts v. United States, 141 F.3d 1468, 1471 (11th Cir. 1998)
(explaining that the plaintiff could not file a separate civil suit to collaterally attack the
injunctions issued by a court in a criminal forfeiture case).
Moreover, the Court notes that Plaintiffs attacks on the forfeiture of his funds and
property are specious. As the D.C. Circuit noted when summarily affirming the district court’s
forfeiture order over Plaintiffs property, “[Plaintiffs] underlying criminal convictions
collaterally estop him from arguing that he did not commit the offenses and that his funds and
vehicles lacked the requisite nexus to those offenses.” United States v. $455,273.72, Case No. 115327 (D.C. Cir), March 7, 2012 Order, 1 (citing Emich Motors Corp. v. General Motors Corp.,
340 U.S. 558, 568 (1951) (“[I]t is well established that a prior criminal conviction may work an
estoppel in favor of the Government in a subsequent civil proceeding.”)); see also Ndoromo v.
Barr, Case No. 19-5211 (D.C. Cir.), Feb. 3, 2020 Order, 1 (affirming previous dismissal of
plaintiffs attack on forfeiture). Additionally, the D.C. Circuit explained that ‘“civil forfeiture
does not constitute punishment for the purpose of the Double Jeopardy Clause.’” Id. at 2

11

Case l:19-cv-03781-CKK Document 17 Filed 08/31/20 Page 12 of 13

(quoting United Stales v. Ursery, 518 U.S. 267, 287 (1996)). For these reasons, the Court
concludes that Plaintiffs claim collaterally attacking the forfeiture of his funds and property, as
ordered by another court, does not state a plausible claim for relief.
2. False Claims Act
While it is unclear, Plaintiff appears to raise a False Claims Act claim in his response.
ECF No. 13, 39, 30. Plaintiff also previously raised a False Claims Act claim in his previous
lawsuit. Nodoromo, 18-2339(CKK), ECF No. 1. As this claim was dismissed in his previous
lawsuit, Plaintiff is barred from reiitigating it now.
As before, Plaintiff appears to misunderstand the nature of the False Claims Act, 31
U.S.C. § 3729. The purpose of the False Claims Act “is to prevent the commission of fraud
against the federal government and to provide for the restitution of money that was taken from
the federal government by fraudulent means.” United Stales v. Salory Global, Inc., 946 F. Supp.
2d 69, 80 (D.D.C. 20.13) (internal quotation marks omitted). Because the False Claims Act is
meant to ensure that funds are not falsely taken from the government, the Court concludes that .
Plaintiff cannot use the Act to allege that the government has falsely taken funds from him.
Plaintiff cites no case in which a court has allowed the False Claims Act to be used in this way.
See Ndoromo v. Barr, Case No. 19-5211 (D.C. Cir.), Feb. 3, 2020 Order, 2 (affirming dismissal
of Plaintiff s prior False Claims Act claim). Accordingly, the Court concludes that Plaintiff s
allegations under the False Claims Act do not state a plausible claim for relief.
3. 12 USC §1817
Finally, in his Complaint, Plaintiff cites 12 USC § 1817. Plaintiff argues that Defendants
violated the provision stating that a[n]o Person, acting directly or indirectly or through or in
concert with one or more other persons, shall acquire control of any insured depository institute

12

Case l:19-cv-03781-CKK Document 17 Filed 08/31/20 Page 13 of 13

through a purchase, assignment, transfer, pledge, other disposition of voting socle of insured
depository institution unless the appropriate Federal Banking Agency has been given sixty days
prior written notice of such proposed acquisition and within that time period.” ECF No. .1 -1 ,'8.
Plaintiff further argues that, based on this violation though the forfeiture of his bank accounts,
Defendants owe him a civil penalty of not more than $25,000 for every day of the violation. Id.
This claim fails for multiple reasons. First, the Court has already explained that, as this
claim is tied to the challenged forfeitures, it is barred by issue preclusion. See Supra Sec. III.A.
Second, Plaintiff uses his claim under 12 USC § 1817 to collaterally attack the validity of the
forfeiture orders. Plaintiff cannot collaterally attack the forfeiture orders in this manner. Id.
Third, Plaintiff has provided no case in which this statute was used against the Government when
the Government’s taking of funds was approved by court order. And, Plaintiff has failed to
provide any factual allegations as to how Defendants violated this statute. Finally, there does not
appear to have been a waiver of sovereign immunity as to the statute.
For these reasons, the Court finds that Plaintiff has failed to state a claim for the violation
of 12USC § 1817.
IV. CONCLUSION
For the foregoing reasons, the Court DENIES Plaintiffs [9] Motion for Recusal and
GRANTS Defendants’ [6] Motion to Dismiss. Plaintiff has failed to state a legitimate reason for
the undersigned Judge’s recusal. And, reading Plaintiffs Complaint and other filings in the light
most favorable to him, Plaintiff has failed to allege any facts which state a plausible claim for
relief. An appropriate Order accompanies this Memorandum Opinion.
Is/
COLLEEN KOLLAR-KOTELLY
United States District Judge

13

